 

IN THE
SUPREME COURT OF THE UNITED STATES

October Term, 2020

LAYW THOMAS, Petitioner
vy.

COMMONWEALTH OF KENTUCKY, Respondent

PETITION FOR A WRIT OF CERTIORARI
‘TO THE SUPREME COURT OF KENTUCKY

AFFIDAVIT PURSUANT TO
SUPREME COURT RULE 29.2

I, Kathleen Kallaher Schmidt, being first duly sworn according to law, depose and say:
1. 1am a member of the Bar of the Supreme Court of the United States.
2. 1am counsel of record for Petitioner in the above-styled action.

3. The attached Petition for Writ of Certiorari, Motion For Leave To Proceed In Forma
Pauperis, Affidavit of Indigency, Certificate of Service and Appendix were mailed from the
United States Post Office, on Wilkinson Street, Frankfort, Kentucky 40601, by having the post
office postmark the Petition on January 15, 2021, and mail it to the Supreme Court by first class
mail.

4. The aforementioned documents were deposited in the United States Post Office, with first-
class postage prepaid, and properly addressed to Mr. Scott S. Harris, Office of the Clerk of the
United States Supreme Court, One First Street, N.E., Washington, D.C. 20543.
Respectfully Submitted,

ret [illtL ho

Kallaher S¢hmidt*
Department of Public Advocacy
5 Mill Creek Park, Suite 100
Frankfort, Kentucky 40601
(502) 564-8006 (office)

(502) 695-6769 (fax)
kathleen.schmidt@ky.gov

*Counsel of Record

Subscribed and sworn to before me by Kathleen Kallaher Schmidt, on this 15th day of January,
2021.

  

ATE AT LARGE

My Commission Expires: DAOS4
NomMey tp /0685

   
